          Accuracy and Reliability of GPRA Performance Measures: 

           Timeliness of Non-Disability Survivor Annuity Payments 

                       Report 06-03, January 30, 2006 


                                  INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) review
of the accuracy and reliability of the Railroad Retirement Board’s (RRB)
performance measures for the timeliness of non-disability survivor annuity
payments.

BACKGROUND

The RRB’s mission is to administer retirement and survivor insurance benefit
programs for railroad workers and their families under the Railroad Retirement
Act. The RRB also administers unemployment and sickness insurance benefit
programs under the Railroad Unemployment Insurance Act.

Generally, survivor annuities are payable to widows, widowers, and unmarried
children. In certain cases, benefits are also payable to parents, remarried
widow(er)s, grandchildren and surviving divorced spouses. Eligibility for survivor
benefits depends on a covered worker’s eligibility status at the time of death.
The RRB awarded approximately 8,700 new non-disability survivor annuities and
4,700 lump sum payments during Fiscal Year (FY) 2005. At the end of FY 2005,
there were 168,000 non-disabled survivor annuitants and benefits averaged
$1,020 a month.

The Government Performance and Results Act of 1993 (GPRA) initiated program
performance reform by requiring agencies to set program goals, measure
program performance against those goals, and report publicly on their progress.
In carrying out the provisions of GPRA, each agency prepares an annual
performance plan covering each program activity set forth in the agency’s
budget. The RRB publishes a Performance and Accountability Report, which
includes the annual Financial Statements, and a Performance Section detailing
performance against key customer service and other measures. The Planning
Council is an executive committee of the RRB with responsibility for planning and
preparing the Performance Section (referred to as the “GPRA report”).

The GPRA report contains performance indicators related to the timeliness of
three types of non-disability survivor payments: (1) initial survivor benefits, (2)
spouse to survivor benefit conversions, and (3) lump-sum death benefits. The
performance goals for each measure are:

   1. A survivor annuitant not already receiving a benefit will receive initial
      payment, a decision, or notice of transfer to the Social Security




                                          1

       Administration (SSA) within 65 days of the annuity beginning date (ABD)
       or date filed, whichever is later.

   2. A survivor annuitant currently receiving benefits as a spouse will receive
      payment as survivor, notice of denial, or notice of application transfer to
      SSA, within 35 days of the RRB’s receipt of the notice of employee's
      death.

   3. An applicant for any railroad retirement death benefit will receive payment
      or notice of denial within 65 days of date filed.

The Office of Programs compiles the data for these three measures and
prepares management reports that form the basis for the GPRA report. The
office is also responsible for the reliability, accuracy, and validity of the related
performance data published in the annual GPRA report.

Performance measures support the major goals and objectives in the RRB’s
2003-2008 Strategic Plan and the agency’s annual operating plans. The
measures also support the President’s Management Agenda and Office of
Management and Budget guidelines calling for a closer linkage between
performance and budgeting.

A recent OIG review determined that major system flaws and inadequate
management oversight undermined the accuracy and reliability of the
performance indicators relating to timeliness of initial railroad retirement annuity
payments (OIG Audit Report No. 05-05 issued May 17, 2005).

OBJECTIVE, SCOPE AND METHODOLOGY

Our objective was to determine whether the RRB performance measures for
timeliness of non-disability survivor benefit payments are reliable and valid. The
scope covered data for October 2004 through June 2005. To achieve our
objective, we:

   •	 Analyzed relevant laws, regulations, policies, and procedures.
   •	 Interviewed agency officials to obtain an understanding of operations.
   •	 Recomputed the summary time lapse statistics included in the GPRA
      report for April through June 2005.
   •	 Selected judgmental samples of survivor applicants paid in October 2004
      through June 2005 to test the accuracy of time lapse data captured.
   •	 Reconciled the June 2005 counts for two performance measures to test
      for accuracy of total cases, and evaluated the reported data for other
      months for reasonableness.




                                           2

The review was conducted in accordance with generally accepted government
auditing standards, as applicable to the objectives. The fieldwork was performed
at the RRB headquarters in Chicago, Illinois from May through October 2005.

                             RESULTS OF REVIEW

The RRB performance measures for the timeliness of non-disability survivor
annuity payments have not been completely reliable and accurate, but the
agency is making an effort to improve the process. Our review disclosed that:

    •	 The Office of Programs has not verified the supporting data.

    •	 The time lapse methodology for some initial survivor payment cases is
       incorrect.

    •	 The current process used to collect and summarize data is not efficient.

    •	 The procedures for compiling performance measures are undocumented
       and no backup person has been assigned in case the current employee
       performing the job unexpectedly leaves.

    •	 The Office of Programs does not have up-to-date record retention
       policies.

    •	 Data in the application processing system relating to the status field of
       survivor applications is not always reliable.

The details of our findings and recommendations follow.

SUPPORTING DATA IS NOT VERIFIED

The Office of Programs had incorrectly included some disability cases in the
initial survivor payment statistics and had understated the timeliness for the
measure. In addition, the OIG found minor discrepancies in workload counts for
lump-sum death benefits for the month tested, primarily because some types of
lump-sum payments had been excluded and some initial survivor annuities had
been erroneously included as lump-sum payments.

The GPRA report contains separate and differing performance indicators related
to the timeliness of payments for the various types of annuitants and
applications. The indicators correspond mostly to the major types of benefits that
the agency can pay as part of its overall mission of income protection during old
age and in the event of disability, death or temporary unemployment and
sickness. Controls should be established to validate the propriety and integrity of
performance measures. These controls would ensure that the types of benefits
are properly categorized and tracked.


                                         3

The Office of Programs uses reports from several different payment systems and
runs separate monthly on-line queries to identify the various applications and
obtain all data needed for each performance measure. However, the agency
does not perform periodic testing to ensure that the compiled systems data, such
as the application type, is accurate and reliable for the related performance
measure.

Without sufficient verification of the supporting data, there is a risk of inaccuracy
in the GPRA report that would be undetected by the agency. Erroneously
including disability cases in the initial survivor count caused an under-reporting of
timeliness for the initial survivor payment timeliness measure. Testing performed
by the Office of Programs confirmed that those disability cases incorrectly
included in the initial survivor payment measure have been removed since April
2005. The Office of Programs revised the reported statistics for April 2005 and
afterwards. For the April through June period, the number of reportable initial
payments decreased from the previously reported 633 to 587, and the
percentage of cases meeting the timeliness goal increased from 88.3% to 95.7%.
The OIG has tested the June 2005 statistics for the initial survivor and lump-sum
death benefit payment measures and believes that they are reasonably accurate.

In Audit Report No. 06-01, Fiscal Year 2005 Financial Statement Audit Letter to
Management, issued November 15, 2005, the OIG has recommended that the
RRB ensure that the internal control process for performance indicators includes
validation of data. Therefore, no additional recommendation is being made at
this time.

Recommendation

The OIG recommends that the Office of Programs:

   1. Determine and report the impact of the disability count error on the 

      disability performance measure results stated in the GPRA report. 


Management’s Response

The Office of Programs agrees with the recommendation and will confirm the
impact of the disability count error on the disability performance measure results
by May 31, 2006. The complete copy of management’s response is included in
the Appendix to this report.

TIME LAPSE METHODOLOGY FOR INITIAL CASES IS INCORRECT

The Office of Programs is using an incorrect methodology to calculate the time
lapse for some initial survivor payment cases. The office currently adds 30 days
to the ABD to determine the starting date for computing the timeliness standard
for initial cases with an ABD later than the filing date.



                                          4

Transactions should be accurately recorded to maintain their relevance to
management in making decisions. All agency recurring annuity payments are
payable on the first of the month for the previous month that the annuitant was
entitled. The performance measure appearing in the GPRA report states that the
goal is to pay a new survivor annuitant or render a response or decision, within
65 days of the annuity beginning date or date filed, whichever is later.

The Office of Programs’ adjustment of these cases is inconsistent with the
definition. For example, if an annuitant applied on June 16, 2005, had an ABD of
July 1, 2005 but was paid on September 12, he or she would have been paid 73
days after the ABD and not met the stated standard. However, the Office of
Programs would have adjusted the time lapse downward to 43 days and counted
the case as meeting the standard.

The adjustment is also inconsistent with the performance measurement for
retirement applications that are filed in advance of the annuity beginning date.
For retirement applications, the Office of Programs uses the annuity beginning
date as the starting date for measuring timeliness, with no 30-day adjustment.

The Office of Programs advised that they added 30 days to the ABD in
determining the time lapse because the adjusted date is the earliest day that an
applicant awarded an annuity can be paid. Using an incorrect methodology
leads to inaccurate time lapse statistics for initial non-disability survivor payments
and increases the risk of incorrect results being reported in the GPRA report.
The OIG is unable to assess the impact of this methodology for the full fiscal year
results. We did not find any material impact on the June 2005 statistics that we
tested because there were no additional cases that had met the standard due to
the 30-day adjustment.

Recommendation

The OIG recommends that the Office of Programs:

   2. Revise the methodology for initial survivor payments to properly reflect the
      stated measurement.

Management’s Response

The Office of Programs concurs and revised the methodology for initial survivor
payments in January 2006. A copy of management’s response is included in the
Appendix to this report.




                                          5

INEFFICIENCIES EXIST IN THE COMPILATION PROCESS

The process for compiling performance measure data is not efficient. It presently
relies on multiple systems and data sources as well as extensive manual
processing and adjustments.

RRB program managers need operational data to determine whether they are
meeting their agency’s performance plans. Pertinent information should be
identified, captured and distributed in a form and timeframe which permits staff to
perform their duties efficiently. The RRB faces strategic issues of meeting
customers’ expectations for personal, high quality service and an ongoing ability
to maintain effective, efficient and secure agency operations.

The agency’s Key Operating Report (KOR) system is used to track and prepare
reports on the timeliness data. Currently, because KOR cannot distinguish
between application types, it is necessary for the agency to use other reports
from several different payment systems and also run separate monthly on-line
queries to identify the various applications and obtain all of the data needed for
the performance measures. These reports are manually reviewed to identify all
of the proper cases and determine the correct time lapse dates.

The risk of errors in compiling the survivor measures is increased because of the
inefficiencies in the current manual process. The agency has initiated plans for a
revised KOR system, with additional functionality to automate portions of the
compilation process. One planned improvement to KOR involves creating new
application type codes that provide more detail and mirror the codes used by the
application system, enhancing the KOR master record fields, and designing new
monthly KOR reports to be used for customer service reporting.

Recommendation

The OIG recommends that the Office of Programs:

   3. Complete the development and implementation of the KOR system 

      changes. 


Management’s Response

The Office of Programs agrees and will implement KOR system changes by May
31, 2006. A copy of management’s response is included in the Appendix to this
report.




                                         6

PROCEDURES ARE UNDOCUMENTED AND NO BACKUP PERSON HAS
BEEN ASSIGNED

The Office of Programs does not have sufficient procedures in place to ensure
that they could continue to prepare performance reports on a timely basis should
the current employee doing the job unexpectedly leave.

Good internal controls require appropriate documentation of policies and
procedures and effective staff management. Organizations are generally
expected to employ policies and procedures that would ensure timely and orderly
resumption of time-sensitive operations, with minimal interruption, if an
unforeseen event occurs.

Currently, no documented departmental procedures exist that fully explain the
process for compiling performance measures. One person also is primarily
responsible for performing the highly manual job and no backup person has been
trained.

Lack of written procedures increases risk of errors in the measurement,
compilation, and report preparation, in addition to likely business disruption with
personnel changes. Reliance on one person with no backup adds to business
disruption risk should the person unexpectedly be unable to perform his or her
duties.

Recommendations

The OIG recommends that the Office of Programs:

   4. Document the procedures for compiling data for survivor performance
      measures.

   5. Train another staff person to perform the compilation job for survivor
      performance measures.

Management’s Response

The Office of Programs agrees with both recommendations. The Office of
Programs documented its procedures for the compilation process in January
2006 and plans to train another staff person by August 31, 2006. A copy of
management’s response is included in the Appendix to this report.

RECORD RETENTION POLICIES ARE NOT ADEQUATE

The RRB does not have adequate record retention policies to ensure full agency
accountability for performance reporting.




                                          7

Adequate and proper documentation includes the creation and maintenance of
complete and accurate records which ensure agency accountability. Agency
bureau managers should ensure that needed information is maintained
accordingly. The RRB’s records schedule for documentation relating to
applications states that the authorized disposition for the system data is to
“delete/dispose of data when no longer needed for administrative, legal, audit, or
operational purposes.” For report and outputs, the schedule states that they can
be destroyed “when six months old or when no longer needed for administrative
use, whichever is sooner.”

The RRB’s policy on retention of management records and supporting system
data for performance measures is outdated. Office of Programs’ officials advised
that some supportive data for performance measures is deleted as early as three
months, but other administrative report files have been kept for several years.
Because the existing retention policy has not been updated and supporting
records have not been retained, the agency is unable to correct the pre-April
2005 initial survivor payment performance measure statistics for the disability
cases that were incorrectly included in the counts. As a result, the FY 2005
GPRA report performance results relating to timeliness of initial survivor
applications are not accurate.

OIG Audit Report No. 06-01, Fiscal Year 2005 Financial Statement Audit Letter
to Management, has recommended that the RRB ensure that the internal control
process for performance indicators includes retention of supporting
documentation. Therefore, no additional recommendation is being made at this
time.

SYSTEMS DATA RELATING TO SURVIVOR APPLICATION STATUS IS NOT
ALWAYS RELIABLE

Data in the APPLE system relating to the status field of survivor annuity
applications is not always reliable. Applications that were never completed,
returned or released by the agency field office staff showed a “paid” status in
APPLE that was incorrect. The applications involved either annuitants with
multiple payments or awards due to several annuitants.

Applications for a survivor annuity must be completed at one of the RRB’s field
offices, with a traveling agency representative, or by telephone and mail. APPLE
records the date of key application activity, including the date the application is
completed or filed, as well as the date the filed application is released to the
payment system or referred for manual handling. APPLE also has a status field
indicating the various stages of the application process which is used to track
and control applications for development purposes.

Controls of information systems should be designed to ensure completeness,
accuracy, proper authorization, and validity of transactions during processing.



                                         8

There are insufficient controls in APPLE to identify inaccurate or inconsistent
data relating to the application status. Because of the lack of controls, some
applications will not be properly tracked on a timely basis because they have an
incorrect status that is undetected. In addition, insufficient controls undermine
the trust in the system to provide reliable processing and data.

Office of Programs staff advised that, although these applications lacked a filing
date, there was little risk of improper and fraudulent payments with these
manually processed cases. To ensure that valid payments are made, authorizers
are responsible for reviewing the action of examiners who manually process
cases for adjudicative action. The authorizer does not rely on the APPLE data
alone, but must review supporting proofs in certifying the payment.

The Office of Programs researched each exception noted by the OIG and verified
that a valid application and other supportive documentation was on file to justify
the annuity payment. The OIG also reviewed the records and determined that no
improper or fraudulent payment occurred.

Recommendations

The OIG recommends that the Office of Programs:

   6. Develop an edit control in APPLE to prevent data inconsistencies between
      the survivor application status and activity dates.

   7. Identify all applications in the APPLE database showing a paid status with
      no filing date. Research and correct these cases, and implement action
      needed to correct the cause of this error.

Management’s Response

The Office of Programs agrees with the recommendation to develop the APPLE
edit control and will complete corrective action by September 30, 2006. The
Office of Programs also agrees with the recommendation to identify, research,
and correct APPLE applications showing a paid status with no filing date.
Corrective action will be completed by September 30, 2006. A copy of
management’s response is included in the Appendix to this report.




                                        9

